<html>
<title> - STRICKLAND NOMINATION</title>
<body><pre>[Senate Hearing 111-16]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 111-16
 
                         STRICKLAND NOMINATION

=======================================================================



                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   TO

   CONSIDER THE NOMINATION OF THOMAS L. STRICKLAND, TO BE ASSISTANT 
 SECRETARY FOR FISH AND WILDLIFE AND PARKS, DEPARTMENT OF THE INTERIOR

                               __________

                             MARCH 24, 2009


                       Printed for the use of the
               Committee on Energy and Natural Resources


                  U.S. GOVERNMENT PRINTING OFFICE
48-829                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800 Fax: (202) 512-2250  Mail: Stop IDCC, Washington, DC 20402-0001



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     1
Strickland, Thomas L., Nominee to be Assistant Secretary For Fish 
  and Wildlife and Parks, Department of the Interior.............     3
Udall, Hon. Mark, U.S. Senator From Colorado.....................     2

                                APPENDIX

Responses to additional questions................................    23


                         STRICKLAND NOMINATION

                              ----------                              


                        TUESDAY, MARCH 24, 2009

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:33 p.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. Why don't we try to get started here. I know 
people have other things they need to be doing. The committee 
meets this afternoon to consider the nomination of Thomas 
Strickland to be the Assistant Secretary for Fish and Wildlife 
and Parks at the Department of Interior. Mr. Strickland has had 
a long and distinguished career as Chief Policy Adviser to 
former Governor Richard Lamb in Colorado, as the U.S. Attorney 
for the District of Colorado, as a partner in two of Denver's 
highly respected law firms, most recently as Executive Vice 
President and Chief Legal Officer for one of the country's 
largest health care companies.
    Mr. Strickland is no stranger to many of the issues that he 
will face if confirmed. Along with Secretary Salazar, he was 
one of the founders of the Great Outdoors Colorado Program, 
which uses State lottery money to protect Colorado's parks and 
wildlife habitat and open space. Moreover, since January he has 
served as Secretary Salazar's chief of staff at the Department 
of the Interior.
    I believe President Obama has made an excellent choice and 
I strongly support Mr. Strickland's nomination.
    Let me defer to Senator Murkowski for any comments she has 
before we proceed with the rest of the hearing.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    Just a welcome from the committee to you, Mr. Strickland. I 
appreciate to opportunity to ask a few questions of you and to 
welcome you and to thank you for your willingness to serve. We 
recognize that, as competent and as able as our friend and 
former colleague Secretary Salazar is, he can't do this job 
alone. So he needs some help up there, and it's important that 
we work through this process to make sure that the men and 
women who are standing by to provide that level of service are 
moved through the process.
    So I look forward to hearing your comments and responses to 
our questions today, but welcome you to the committee. Again, 
thank you for your willingness to serve the Administration.
    Mr. Strickland. Thank you, Senator.
    Chairman Levin. First, before we get into the rules of the 
committee, let me recognize our colleague and esteemed member 
of this committee, Senator Udall, to introduce Mr. Strickland. 
Why don't you go ahead with that introduction at this time, and 
then we will proceed to the rest of the hearing.

          STATEMENT OF HON. MARK UDALL, U.S. SENATOR 
                         FROM COLORADO

    Senator Udall. Thank you, Mr. Chairman, Ranking Member 
Murkowski.
    Two months ago I had the pleasure of introducing my fellow 
Coloradan, Ken Salazar, to this committee for his confirmation 
to be Secretary of the Interior, and today I have another 
honor, that of introducing and supporting another fellow 
Coloradan, Tom Strickland, to be the next Assistant Secretary 
for----
    The Chairman. We're a little concerned about this Colorado 
cabal that seems to be settling in.
    Senator Udall. We're going to work it a little bit more, 
Mr. Chairman, as I proceed.
    But we're here to hear from I hope the next Assistant 
Secretary for Fish and Wildlife and Parks for the Department of 
the Interior. As the chairman of the National Parks 
Subcommittee, I'm particularly pleased to support that 
nomination of Tom Strickland for Assistant Secretary for Fish 
and Wildlife and Parks because he's had a long, long history of 
activism on behalf of protecting our national and State parks 
and public lands in general.
    You're going to have to excuse me again for indulging in a 
bit of home State pride when I say how great it's been to see 
so many Coloradans going to work for the Department of the 
Federal Government that has so much influence on the economic 
life and really our quality of life in the West. Interior, Mr. 
Chairman, is now home to so many Coloradans that I understand 
the cafeteria at Interior is now offering up Rocky Mountain 
oysters. I just want to make that note for the committee.
    It speaks highly, I think, of the motivational leadership 
of both Secretary Salazar and his chief of staff and nominee to 
be the Assistant Secretary for Fish and Wildlife and Parks, Tom 
Strickland, that so many of their fellow Coloradans have 
voluntarily left the best State in the Union to work in 
Washington.
    Mr. Chairman, why do I know that Tom Strickland will be an 
excellent Assistant Secretary of the Interior? He has an 
exceptional track record of leadership, both as an attorney, as 
a businessman, as a civic leader, as someone dedicated to 
public service. He also has an extraordinary wife, Beth, who's 
inspirational in her own right.
    Before coming to Interior, Tom worked in both the public 
and private sectors. He served as the United States Attorney 
for the District of Colorado from 1999 through 2001 and has 
been a partner at several law firms, including Hogan and 
Hartson, in Colorado. From 1982 to 1984 he served as the Chief 
Policy Adviser for Colorado Governor Richard D. Lamb, advising 
the Governor on all policy and intergovernmental issues; and 
from 1985 to 1989 he served on and then chaired the Colorado 
Transportation Commission.
    Tom graduated with honors from Louisiana State University, 
where he was an all-SEC academic football selection, and he 
received his J.D. with honors from the University of Texas 
School of Law.
    Mr. Chairman, as is obviously, I've known Tom Strickland 
over many years. Our work together has largely been in the 
public arena, where Tom, working with Secretary Ken Salazar, 
led efforts in Colorado to pass the historic Great Outdoors 
Colorado Program, which takes State lottery money which is then 
used to acquire public lands for parks, open space, and 
conservation.
    Tom is also an accomplished outdoorsman and, while we 
haven't climbed mountains together, at least not the 14,000-
foot kind, we both have a love for the out of doors and the 
history, people, and landscapes of the West. I know this love 
for the land is what motivated Tom to public service in the 
first place and sustained his two courageous runs for the U.S. 
Senate.
    Mr. Chairman, I was struck this weekend, as I often am, by 
Tom Friedman's column. This weekend he reminded us of the value 
of inspirational leadership. Mr. Friedman quoted Dov Seidman, 
the author of the book ``Hal,'' on what makes an organization 
sustainable. In there Dov said: ``Laws tell you what you can 
do. Values inspire you what you should do. It's a leader's job 
to inspire in us those values.''
    I mention this because I know that as Assistant Secretary 
for Fish and Wildlife and Parks Tom's job will demand both 
enforcement of important rules, regulations, and laws and 
inspired collaborative leadership. As one of the country's most 
successful lawyers, Tom will know how to enforce environmental 
laws, and as a man who draws inspiration from our mountains, 
plains, and waters, he also knows how to motivate and lead 
others.
    So in that spirit, Mr. Chairman, I'm pleased to support his 
confirmation and honored to introduce him today.
    The Chairman. Thank you very much for your strong 
endorsement and your introduction. We appreciate that. I 
understand you're going to have to excuse yourself to preside 
at some point here fairly soon, but thank you for that.
    Let me get on with the rest of our procedure here. The 
rules of the committee that apply to all nominees require that 
they be sworn in connection with their testimony. Mr. 
Strickland, would you please stand and raise your right hand.

  TESTIMONY OF THOMAS L. STRICKLAND, NOMINEE TO BE ASSISTANT 
 SECRETARY FOR FISH AND WILDLIFE AND PARKS, DEPARTMENT OF THE 
                            INTERIOR

    The Chairman. Do you solemnly swear that the testimony 
you're about to give to the Senate Committee on Energy and 
Natural Resources shall be the truth, the whole truth, and 
nothing but the truth?
    Mr. Strickland. I do.
    The Chairman. Please be seated.
    Before you begin your statement, I'll ask three questions 
that we address to each nominee who comes before this 
committee. First, will you be available to appear before this 
committee and other Congressional committees to represent 
Departmental positions and respond to issues of concern to the 
Congress?
    Mr. Strickland. I will.
    The Chairman. Second question: Are you aware of any 
personal holdings, investments, or interests that could 
constitute a conflict of interest or create the appearance of 
such a conflict should you be confirmed and assume the office 
to which you've been nominated by the President?
    Mr. Strickland. My investments, personal holdings, and 
other interests have been reviewed both by myself and the 
appropriate ethics counselors within the Federal Government. I 
have taken appropriate action to avoid any conflicts of 
interest. There are no conflicts of interest or appearances 
thereof to my knowledge, Mr. Chairman.
    The Chairman. Fine. Then let me ask the third and final 
question: Are you involved or do you have any assets that are 
held in a blind trust?
    Mr. Strickland. No, I do not.
    The Chairman. All right. At this point the tradition of our 
committee is to ask the nominee if they have any family members 
they would like to introduce. So please feel free to do that if 
you'd like.
    Mr. Strickland. Thank you, Mr. Chairman. I'm honored to 
have behind me my wife of 35 years, and I'd like to thank her 
for her love and support, Beth. Not here in person, but with us 
in spirit, are our three daughters, Lauren, Annie, and Callie.
    Thank you very much.
    The Chairman. Thank you very much.
    Why don't we have you go ahead with your statement here, 
and then I'm sure members of the committee will have some 
questions.
    Mr. Strickland. Thank you, Mr. Chairman, Senator Murkowski, 
and members of the committee. I'd like to start out by thanking 
Senator Udall for his gracious remarks and his willingness to 
introduce me to the committee. I have known Senator Udall and 
his fabulous wife Maggie, and Beth and I have, for many, many 
years, and his service to the State of Colorado and to the 
United States, and it's particularly meaningful to me to have 
him introduce me for this position given the history of his 
family, his uncle having been a Secretary of Interior, of 
course, and his father's great leadership on so many issues, 
but particularly ones that affect this committee and its 
jurisdiction. So thank you very much, Senator Udall. It was an 
honor.
    I'm very much honored to be here today as President Obama's 
nominee for Assistant Secretary for Fish and Wildlife and 
Parks. Later in the week I'll also appear before the Senate 
Environment and Public Works Committee.
    Like each of you, I have a deep commitment to public 
service and consider it a privilege to have the opportunity, if 
confirmed, to return to government service. As I will briefly 
describe in a few moments, I've had the opportunity during my 
career to serve in both State and Federal Government and these 
experiences have been the highlight of my career.
    The responsibilities of this position include oversight of 
two very important parts of the Interior Department, the 
National Parks Service and the Fish and Wildlife Service. As I 
will address in my brief remarks, I believe my passion and 
experience qualify me for this position at this important 
moment in time.
    A lawyer by training, I have spent the majority of my 
career in Colorado, where, as I said, I worked in both the 
public and private sector. Following a judicial clerkship with 
a Federal judge, in 1979 Beth and I moved to Denver. In 1982 I 
was asked by Governor Richard Lamb to become his Chief Policy 
Adviser. In this role I dealt extensively with the Interior 
Department and other Federal agencies regarding many important 
natural resource issues.
    Because Colorado is one-third Federal land, decisions made 
in Washington have a profound impact on the State and consume 
much of our attention. I believe that this perspective that I 
gained during this experience will be valuable in helping me 
understand and work with State and local governments should I 
be confirmed in this position.
    After I left the Governor's office and returned to private 
law practice, I was asked by Governor Lamb to serve on and 
eventually chair the Colorado Transportation Commission, where 
I had the opportunity to once again work with the Federal land 
management agencies. My civic and community work included 
volunteering on many environmental and natural resource issues, 
including helping to create the Great Outdoors Colorado Program 
and serving on its original organizing board. We now proudly 
look back at the Great Outdoors Colorado Program, $600 million 
invested and 600,000 acres protected in State parks, open 
space, and wildlife since 1993 just in the State of Colorado.
    In 1999 I was appointed by President Clinton and confirmed 
by the Senate as United States Attorney for Colorado. I was 
sworn in the day after the Columbine tragedy and spent my first 
day on the job at the school with the Attorney General of the 
United States. During my tenure as U.S. Attorney I had the 
responsibility of representing the United States in all civil 
and criminal matters in Colorado and I worked closely with the 
Interior Department, as well as other Federal agencies in this 
regard. Once again, this experience gave me a valuable 
perspective on the role and impact of the Federal Government 
outside of Washington.
    While these professional experiences contribute to my 
qualifications for this position, I believe my passion for the 
mission of the Department is equally relevant. Simply put, Beth 
and I fell in love with the West, the mountains, rivers, 
deserts, the parks and the wildlife. Like many couples before 
us, we bought a book on the national parks and set out to visit 
all of them. We're still working on it, but from Acadia to 
Yosemite we've enjoyed most of them.
    They are, as Wallace Stegner famously said, America's best 
idea, and it is time for our generation to be responsible 
stewards for these treasured icons. As the Park System 
approaches its 100th anniversary, the parks are in great need 
of significant investment. Just as President Lincoln didn't let 
the Civil War keep him from protecting Yosemite Valley, we must 
not use our current economic circumstances as an excuse for 
inaction. If confirmed, I will do everything in my power to 
protect and enhance our incomparable Park System.
    Although the activities of the Fish and Wildlife Service 
are not directly within the purview of this committee, I would 
like to say a few words about the importance of this agency and 
the challenges it faces. I grew up hunting and fishing with my 
father and brother and bring the perspective of a sportsman to 
this task.
    Our system of wildlife refuges play an invaluable role in 
preserving and protecting countless species. Yet these vital 
lands face enormous pressures from population growth and 
climate change. We must develop a strategic plan to assure that 
these challenges are addressed, so that we have a vibrant 21st 
century wildlife refuge system.
    Another significant responsibility of the Fish and Wildlife 
Service is the implementation of the Endangered Species Act. My 
commitment to you is that if confirmed I will work to see that 
the decisions of the Service are based on science, not 
politics.
    In closing, I would be deeply honored to serve as Assistant 
Secretary for Fish and Wildlife and Parks. I have a deep 
passion for the mission of these two services and great respect 
for Secretary Salazar, a friend for 28 years, and his vision 
for the Department.
    Thank you for the opportunity to present this statement.
    [The prepared statement of Mr. Strickland follows:]
  Prepared Statement of Thomas L. Strickland, Nominee to be Assistant 
 Secretary for Fish and Wildlife and Parks, Department of the Interior
    Thank you Mr. Chairman, Senator Murkowski and members of the 
committee. I am honored to be here with you today as President Obama's 
nominee for Assistant Secretary for Fish and Wildlife and Parks. Later 
in the week I will also appear before the Senate Environment and Public 
Works Committee.
    I am joined here today by my wife Beth, and I would like to thank 
her for all of her love and support over many years. Not able to be 
here today, but with us in spirit, are our three daughters, Lauren, 
Annie and Callie.
    Like each of you, I have a deep commitment to public service and 
consider it a privilege to have the opportunity, if confirmed, to 
return to government service. As I will briefly describe in a few 
moments, I have had the opportunity during my career to serve in both 
state and federal government, and these experiences have been the 
highlights of my professional life.
    The responsibilities of this position include oversight of two very 
important parts of the Interior Department--the National Park Service 
and the Fish and Wildlife Service. As I will address in my brief 
remarks, I believe my passion and experience qualify me for this 
position at this important moment in time. A lawyer by training, I have 
spent the majority of my career in Colorado where I have worked in both 
the public and private sector. Following a judicial clerkship with a 
federal judge, in 1979 my wife and I moved to Denver. In 1982, I was 
asked by Governor Richard Lamm to join his office as his chief policy 
advisor. In this role, I dealt extensively with the Interior Department 
and other federal agencies regarding many important natural resource 
issues. Because one third of Colorado is federal land, the decisions 
made in Washington have a profound impact on the state and consumed 
much of our attention. I believe this perspective will be valuable in 
helping me understand and work with state and local governments.
    After I left the Governor's office and returned to private law 
practice, I was asked by Governor Lamm to serve on and eventually chair 
the Colorado Transportation Commission, where I had the opportunity to 
once again work with the federal land management agencies. My civic and 
community work included volunteering on many environmental and natural 
resource issues. A crown jewel of my work was helping create the Great 
Outdoors Colorado program and serve on its original organizing board. 
We now proudly look back at the Great Outdoors Colorado program--$600 
million invested and 600,000 acres protected in state parks, open space 
and wildlife since 1993.
    In 1999 I was appointed by President Clinton and confirmed by the 
Senate as United States Attorney for Colorado. I was sworn in the day 
after the Columbine tragedy and spent my first day on the job at the 
school with the Attorney General. During my tenure as U.S. Attorney I 
had the responsibility of representing the United States in all civil 
and criminal matters in Colorado, and I worked closely with the 
Interior Department as well as other federal agencies. Once again, this 
experience gave me a valuable perspective on the role and impact of the 
federal government.
    While these professional experiences contribute to my 
qualifications for this position, I believe my passion for the mission 
of the Department of the Interior is equally relevant. Simply put, Beth 
and I fell in love with the West--the mountains, rivers, deserts, the 
parks and the wildlife. Like many couples before us, we bought a book 
on the national parks and set out to visit all of them. We are still 
working on it, but from Acadia to Yosemite, we've enjoyed most of them.
    They are, as Wallace Stegner famously said, ``America's best 
idea,'' and it is time for our generation to be responsible stewards 
for these treasured icons. As the park system approaches its 100th 
anniversary, the parks are in great need of significant investment. 
Just as President Lincoln didn't let the Civil War keep him from 
protecting Yosemite Valley, we must not use our current economic 
circumstances as an excuse for inaction. If confirmed, I will do 
everything in my power to protect and enhance our incomparable park 
system.
    Although the activities of the Fish and Wildlife Service are not 
directly within the purview of this committee, I would like to say a 
few words about the importance of this agency and the challenges it 
faces. I grew up hunting and fishing with my father and brother and 
bring the perspective of a sportsman to this task. Our system of 
wildlife refuges span all 50 states and play an invaluable role in 
preserving and protecting countless species. Yet these vital lands face 
enormous pressures from population growth and climate change. We must 
develop a strategic plan to assure that these challenges are addressed 
so that we have a vibrant 21st century wildlife refuge system.
    Another significant responsibility of the Fish and Wildlife Service 
is the implementation of the Endangered Species Act. My commitment to 
you is that, if confirmed, I will work to see that the decisions of the 
Service are based on science, not politics.
    In the work I will do at the Department, I pledge to listen to the 
broad diversity of voices that care about our national parks and fish 
and wildlife resources. That inclusive approach is one that I have 
always embraced and one that is consistent with how Secretary Salazar 
has always conducted himself.
    In closing, I would be deeply honored to serve as Assistant 
Secretary for Fish and Wildlife and Parks. I have a deep passion for 
the mission of these two services and great respect for Secretary 
Salazar, a friend for 28 years, and his vision for the Department. 
Thank you for the opportunity to present this statement.

    The Chairman. Thank you very much for your statement.
    Let me start with a few questions. It's my understanding 
that Secretary Salazar has determined to have you retain your 
current position as Chief of Staff even if you are confirmed as 
Assistant Secretary for Fish and Wildlife and Parks. Although 
there's no legal impediment to your holding both those offices, 
I would ask if you think you can do both of those jobs as a 
practical matter? If so, how would you propose to divide your 
time and energy between the two positions?
    Mr. Strickland. Mr. Chairman, the Secretary asked me to 
take both these responsibilities on and we have organized the 
staffing of the Secretary's office with that in mind. I'm very 
fortunate to have an extraordinary Deputy Chief of Staff, who's 
with us here today, Renee Stone, what is literally a Rhodes 
scholar and will take on the large part of the administrative 
responsibilities normally assumed by a Chief of Staff. We're 
also going to build out a very strong supporting staff around 
Renee.
    I will prioritize my responsibilities if confirmed as 
Assistant Secretary. I will not compromise those 
responsibilities in any fashion, and if we need to make further 
adjustments we will.
    The Secretary and I have known each other for a long time. 
At one point I was the U.S. Attorney, he was the Attorney 
General at the same time. So he's asked me to help him with 
some of the major policy issues, and I think that's the reason 
he wanted me to stay on in a role as Chief of Staff. But my 
primary focus will be on the duties of Assistant Secretary.
    The Chairman. Let me ask about the Centennial Challenge. 
The previous Administration proposed what they called, what's 
been designated the Centennial Challenge, to provide a source 
of dedicated funds to restore and care for the national parks 
in preparation for the centennial of the National Parks 
Service's founding in 2016. Both Secretary Kempthorne and then-
Senator Salazar supported this initiative during the last 
Congress.
    I'd be interested in any thoughts you have on the idea. Is 
this something you believe is worth pursuing in this 
Administration?
    Mr. Strickland. Mr. Chairman, yes, wholeheartedly. With the 
100th anniversary of the Park System approaching in 2016, I 
think the opportunity for public-private partnerships that the 
Centennial Challenge represents is as strong as it's ever been. 
In addition, I think the members of the committee are aware Ken 
Burns, the noted and award-winning documentary filmmaker, is 
going to be unveiling his 6-part, 12-hour series on the 
national parks. Actually, it's going to start running in the 
fall. I think it's going to create an unprecedented opportunity 
for public interest and partnerships relative to investing in 
the parks at the level that we need.
    I know the members of the committee are aware of this, but 
we have what's been estimated to be a $9 billion backlog in 
terms of deferred maintenance in the national parks. We got 
about $750 million out of the Recovery Act. That'll be an 
important step forward, but there's much work to be done.
    The Chairman. Thank you very much.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    You mentioned your mission with your wife to visit all of 
the national parks. I don't know if you've had an opportunity 
to come up north and see what Alaska has to offer, but in terms 
of acreage there you know we've got more than anybody else and 
we'd be honored to have you come and take a look at what we've 
got to show off. It's pretty phenomenal.
    I wanted to ask you this afternoon about the polar bear 
listing and if you were to be confirmed to this position your 
role in the consultation process. There would be a role that 
I'm trying to understand how this actually works. As you know, 
with Secretary Kempthorne's listing last year in the ESA 
designation there was a 4[d] provision that would lessen the 
threat to subsistence hunting and oil and gas development. But 
in the omnibus just several weeks ago you're given the ability 
to remove these provisions without new public comment.
    I believed then, as I believe now, that that was a process 
and a policy mistake. But it's where we are. So the question 
that I've got is, as we evaluate this, the polar bear listing, 
and recognizing that it's relatively unlimited in its scope and 
can threaten or bring about litigation over most any Federal 
action that would produce carbon emissions, I'm concerned that 
within U.S. Fish and Wildlife the staffing levels are not what 
you would need in order to do the section 7 consultations on 
what could be an incredible number of requests.
    How do you see Interior handling this, moving ahead? I know 
that it's all theoretical at this point in time because we 
haven't gone down this road. But I'm very concerned as to how 
that consultation process will unroll. If you can give me any 
guidance as to what you would recommend the Department do as 
its next step during this 60-day period during which it can 
revise previous listing decisions? Can you just speak to me a 
little about how you envision this consultation?
    Mr. Strickland. I'd be happy to, Senator. First of all, let 
me say I have had the pleasure of going to Alaska. I look 
forward to spending more time there if confirmed on business. 
But I had a great week fly fishing with my father around Lake 
Iliamo and the Copper River and caught some beautiful rainbow 
trout that week. So very fond memories, and I know how much it 
plays a role in the Department and vice versa.
    With respect to the ESA, I would say at the outset, in 
deference to this process, while I have been at the Department 
since January 21, I've been wearing my hat as Chief of Staff 
and I haven't spent any time down within the Fish and Wildlife 
Service in any way presuming to take on those responsibilities. 
So with respect to the questions that you raise, I know I can 
say this: that those ultimate decisions will be made by the 
Secretary, but up to this point no decisions have been made 
following the congressional language that was passed in the 
omnibus spending bill. Those matters are under review.
    We are, with respect to the consultation responsibilities 
of the Fish and Wildlife Service under the ESA--we did allocate 
or are planning on allocating some meaningful dollars under the 
Recovery Act for additional staffing levels, because we 
recognize that the consultation workload will be increased by 
virtue of all the money that will be coming through on a very 
accelerated basis for those projects.
    So your points are well taken. We'll certainly give them 
very serious consideration, and we appreciate that if it's not 
properly staffed these processes could create a bottleneck. But 
at this point no decision has been made. These issues are under 
review and if confirmed I will certainly look forward to 
working with you and the rest of the members of the committee 
as we sort through these very important issues.
    Senator Murkowski. I appreciate the response. If there is 
more that comes forward that you can share--just in terms of 
that consultation process, I think it will be important to know 
exactly how that is to be implemented.
    Let me ask you a very quick question. This is about the 
North Slope Science Initiative. As you know, up North U.S. Fish 
and Wildlife is considering listing dozens of Alaskan species 
under the Endangered Species Act. We've got the walrus, we've 
got seals, in addition to the beluga whales that are currently 
being considered.
    We established several years ago the North Slope Science 
Initiative and it was to do just sound, basic science and, 
using this great wealth of science, base the decisions, policy 
decisions, on our science. You've stated science--we should be 
using science, not politics. That's exactly what this North 
Slope Science Initiative was designed to do.
    Unfortunately, the funding for this has been very limited 
over the years. It's about $1.4 million today. So if confirmed, 
as you move forward I would ask you to look very carefully at 
the opportunities that present themselves with this consortium 
of all of these different Federal agencies designed to do just 
that, to focus on the science, because if we cannot provide for 
the sound scientific basis for these listings that move forward 
the process that we have set up here in Congress just fails.
    So I'd ask you to look at that and, if you've got questions 
about how it operates and how it can function more efficiently, 
we'd be delighted to share that with you, but to put that on 
your radar screen.
    Mr. Strickland. I appreciate that, Senator, and I think 
that we do have concerns that there wasn't adequate funding 
over the last number of years for there to be the staffing 
levels necessary so that we could provide that sort of effort. 
I think in this last bill there was some increased funding, and 
so we look forward to working with you on that, because that's 
very much at the heart of this process working, is that you 
have good data and good science. We'll work with you on that.
    Senator Murkowski. Thank you, Mr. Chairman.
    The Chairman. Senator Landrieu.
    Senator Landrieu. Thank you, Mr. Chairman.
    I wanted to be here personally to welcome my good friend 
Tom Strickland and his wife Beth to the committee this 
afternoon and say how happy and really thrilled we are, Tom, 
that the President has recommended you, and to know that your 
strong partnership with Secretary Salazar is going to inure to 
the benefit of everyone in this country. You've got a strong 
working relationship and he most certainly, as he's outlined to 
our committee, has some very ambitious goals and objectives for 
his work.
    I just wanted to make just a couple of brief comments and 
then a question or two. First of all, we're very happy to see 
all of our Colorado folks advancing right on up there, but we 
want to make just a point about the importance of the South and 
the Southeast and the East Coast. Sometimes, and I've been a 
member of this committee now for over 10 years, we spend a lot 
of focus on the West because most of the lands are out West, 
and of course Alaska has huge issues that need attention. But 
just a push to not forget the southern States and these East 
Coast States, and not just our national parks, but, as you so 
graciously with the Secretary visited one of our large urban 
parks that are also very starved for resources and sometimes 
really overlooked.
    Although we have an Urban Park Initiative, a program funded 
at a $100 million level, I don't believe if it's been once in 
the last 25 years that it's ever been funded at that level; 
that would be a lot.
    As I've said often, and the chairman's heard me before, not 
every child gets to the Grand Canyon and not every child can 
get to Yosemite Park or to ski the beautiful slopes in 
Colorado, but these parks are right around the corner from 
their house, and just with a little stronger partnership.
    Number 2, I look forward to working with the chairman and 
with you, Tom, on finding a real solution to finding a 
dedicated stream of revenue for our Park System. There was an 
initial idea some years ago that I think should be revisited, 
which is to dedicate a portion of the offshore oil and gas 
revenues. This idea is not mine, although I'd love to take 
credit for its original version. But it came from, years ago, 
promoting the notion that resources that belong to the Nation, 
the taxes generated from those resources could be reinvested 
back in the land and water.
    It would seem to me, Mr. Chairman, that on the 100th 
anniversary of our National Park System this might be a good 
time to revisit the opportunity to not just share those 
revenues, as we have under the law, with coastal States for 
coastal restoration, but to use a portion of it to fund 
appropriately at appropriate levels the State side and the 
Federal side of the Land and Water Conservation Fund.
    Do you have any thoughts or comments, or have you heard any 
general discussion about that at your level so far?
    Mr. Strickland. Senator, first of all on a personal note, 
thank you for your welcoming remarks. As you know, my wife is 
from Louisiana and I----
    Senator Landrieu. We're very proud of her.
    Mr. Strickland [continuing]. Went there for college and 
actually, as was referenced earlier, I spent 4 summers on a 
football practice field that was 100 years from the Mississippi 
River. So I know that river and that coastline quite well, and 
I spent a summer on an oil rig out of Dulac, Louisiana, working 
the lead tongs in the middle of the marshland. So I know a 
little bit about offshore drilling, I know a little bit about 
what it's like to be on the deck of an oil rig when you're 
doing a round trip in the middle of the night, in the middle of 
the summer.
    I have an appreciation for the fragility and importance of 
the coastal wetlands to our whole country, and the particular 
pain for us and our family, because we still have family 
members in Louisiana, at the impact of those hurricanes in the 
last number of years.
    So I look forward to working with you and your staff. The 
Secretary and I had a great visit there last week. We flew over 
the coastline. We went out to an oil platform 120 miles out and 
we participated in the Gulf lease sale. So there are some very 
important issues that we'll make sure that we bring appropriate 
attention to.
    With respect to a dedicated stream of revenue for parks and 
land acquisition more broadly, it's a very high priority of the 
Secretary. He's already begun to work with the Administration 
and with Members of Congress, and I know he'll want to work 
with this committee, to identify various ideas so that we can 
realize the vision that President Kennedy started with the Land 
and Water Conservation Fund back in 1963. That vision has never 
really been honored.
    We need to do something even beyond fully funding the Land 
and Water Conservation Fund and we need to look for dedicated 
revenue streams. So we look forward to working with you and the 
other members of the committee. It is the highest priority and 
it's something very much on the top list of Secretary Salazar's 
priorities.
    Senator Landrieu. Thank you, Mr. Strickland. My time is 
over for now, but I'll submit some other questions relative to 
sports fishing and hunting, which is also a huge value, I know, 
in Colorado, but it's a great value in Louisiana, and we just 
want to make sure we have the right partnership for our 
sportsmen and women in our State. We appreciate your attention 
to that.
    Thank you.
    The Chairman. Senator Bennett.
    Senator Bennett. Thank you very much, Mr. Chairman.
    Mr. Strickland, thank you for coming by to see me in my 
office yesterday. We had a good visit. I want to revisit some 
of those issues now just to get them on the record.
    First, purely parochial. You're going to be in charge of 
the Endangered Species Act. In Iron County in Utah, the prairie 
dog has been listed as threatened on the Endangered Species 
Act. The trouble with the prairie dog is that it does not like 
the desert. It loves cultivated property, like lawns and 
agricultural lands, cemeteries, and especially the local golf 
course.
    So when a potential industry comes to town and thinks about 
houses for their people and maybe playing golf on the weekends, 
they realize that all of these things are in thrall to the 
prairie dog. In the Endangered Species Act there's a 5- to 7-
year waiting list to get a takings permit to remove the Utah 
prairie dog from private property before it can be built. Now, 
if you like golf come to the Cedar City Golf Course and I 
almost guarantee you will have a hole in one because the 
prairie dog will put a hole wherever it is you plan to put your 
ball.
    The county has been developing an HCP which we believe will 
adequately address the program--or the problem, and I would 
like to ask you, if you are confirmed, to commit to visit 
southern Utah, see the issue firsthand. There are plenty of 
national parks close by that you can visit while you're there. 
You might even want to play a round of golf to improve your 
handicap.
    Is that something you would consider?
    Mr. Strickland. Senator, very much so. I'm not specifically 
familiar with the circumstances of that particular issue. I'm 
generally familiar with the challenges that species provides, 
but I'm also very much familiar with the tools that we have 
available with habitat protection plans, conservation banking, 
to do the kind of partnerships that you're asking us to look 
into, and we should be doing those kinds of things. That's 
really in the spirit of the act, and you have my commitment 
I'll work with you on that.
    Senator Bennett. Good. If we could speed that up so that 
the prairie dog gets relocated somewhere and we reclaim the 
land that we have created for him, that's so attractive for 
him. Let him go back to the desert from whence he came, whether 
he likes it or not.
    The other issue which we talked about has to do with the 77 
oil and gas leases in Utah that were pulled by the Department 
for review. I'm working with Mr. Hayes and Secretary Salazar to 
make sure that the review is thorough and transparent and we 
hope rapid, because in my view they were properly handled and 
probably didn't need a review.
    But the law gives the Department the discretion to conduct 
such a review, and I imagine you will be in it because one of 
the problems that arose was that in his letter to me Mr. Hayes 
indicated that bad information had come from the National Park 
Service and not the BLM.
    Do you plan to be involved in the review, and particularly 
to initiate a review of how the Park Service submitted 
incorrect information to Mr. Hayes?
    Mr. Strickland. First of all, Senator, again, as I said 
with respect to another issue earlier, I have not taken on any 
of the responsibilities of the position for which I've been 
nominated because that would be presumptuous, not having gone 
through a confirmation. So I did not participate in those 
processes----
    Senator Bennett. I understand that, but looking forward.
    Mr. Strickland. Yes, sir. Second, looking forward, if 
confirmed and if confirmed within the timeframe of this review, 
I would expect to be involved in that and I would commit to 
look into it. I think my record and history and reputation in 
government and in private life has been as somebody that is 
about due process and transparency, and that's the kind of 
approach I would bring. I would be happy to work with you and 
your office and the officials in Utah on that.
    Senator Bennett. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Shaheen. Thank you, Mr. Chairman.
    Congratulations, Tom.
    Mr. Strickland. Thank you, Senator.
    Senator Shaheen. Thank you for your willingness to return 
to public life and the public sector. We're delighted to have 
you here.
    I have to start, though, by being totally parochial and 
saying, I love the West too, but given all my colleagues who 
are here on the committee, I feel a need to point out that New 
Hampshire also has mountains, fly fishing, coastal marshes, but 
I confess no prairie dogs and no oil rigs. But we appreciate 
that you will be looking after not only the West, but the East, 
as Senator Landrieu pointed out, and the Northeast.
    One of the things that we're concerned about in New 
Hampshire is climate change. The Fish and Game Department in 
our State has worked with partners in the environmental 
community to develop the State's first wildlife action plan. 
The plan was mandated and funded by the Federal Government 
through the State wildlife grants, and it is there to help give 
us a tool to look at how we maintain these critical habitats.
    The report found that climate change not only will affect 
every species and habitat of conservation in New Hampshire, but 
that the impacts will be most severe for habitats with narrow 
ranges of temperature and water level, such as alpine areas, 
high and low elevation, spruce-fir islands, forests, coastal 
islands, and aquatic habitats. The changes will not only affect 
the existing habitat and wildlife, but we expect and are 
already seeing invasive species as the result of warming 
temperatures, diseases and pathogens that are likely to get 
worse as time goes on.
    Now, my question is, a recent GAO report found that the 
Bureau of Land Management, Fish and Wildlife, and the National 
Park Service have not made climate change a priority, and the 
agencies' strategic plans don't specifically address it. So I 
guess, what steps are you thinking about taking or do you 
believe you should take in your capacity should you be approved 
as Assistant Secretary for Fish and Wildlife and Parks to help 
develop a Federal action plan for response to climate change?
    Mr. Strickland. First of all, Senator, thank you for your 
welcoming remarks as well. It's a pleasure to be in front of 
the committee today, and I hope to have the opportunity to work 
with you in this position if confirmed.
    I do want to make it clear that my outdoor activities have 
also included hiking and biking in New Hampshire----
    Senator Shaheen. Good.
    Mr. Strickland [continuing]. In Acadia National Park. We 
are equal opportunity outdoorspeople and so we love your 
beautiful State as well.
    To your point, we appreciate the enormous impact already of 
climate change on our ecology and on our wildlife species. Just 
earlier, a few days ago, Secretary Salazar participated in the 
release of the State of the Birds Report. You probably saw it. 
It got broad attention, and the impact of climate change and 
population growth on bird populations has been dramatic.
    We recognize we have almost 100 million acres of wildlife 
refugees and whether it's the rising sea levels or changes in 
temperature, the most sensitive habitat is the most susceptible 
to impact from climate change. So that's the land that's often 
been set aside because it's most important to wildlife 
preservation.
    We have to take a look at what we are preserving to see 
whether we have to adjust those assets. We are in the midst, I 
think--and it already started when we came. We just need to 
accelerate it. I think a belated review of the impacts of 
climate change on our wildlife refuge system, we have to fast-
forward that in a very significant way.
    In the President's 2010 budget there are substantial 
dollars to the USGS and Fish and Wildlife for this kind of 
work. We have great scientists within the Department at the 
USGS and at Fish and Wildlife, and we plan on hiring the best 
and the brightest to accelerate this work.
    Senator Shaheen. Thank you.
    I only have a few seconds left, but you already referred to 
the backlog in maintenance in our parks that exists. Can you 
talk a little about the kinds of guidelines that you would 
expect to set in prioritizing that backlog and looking at what 
should be done first?
    Mr. Strickland. Again, because I haven't taken on the 
responsibilities of the job, I haven't been down on the third 
floor where the Assistant Secretary operates to kind of get 
into the granular details. But I have been involved as the 
point person on the stimulus dollars for the Department in 
working at a 20,000-foot level with each of the bureaus with 
their preliminary plans.
    So with respect to the stimulus dollars, the priority is 
supposed to be at Congress's direction on shovel-ready projects 
that are permitted and ready to go. So because the backlog has 
been so long and deep at the Parks Department, we have an ample 
supply of projects. Secretary Salazar has also emphasized that 
he wants projects that promote renewable energy and energy 
efficiency within the parks and projects that also promote 
youth and youth engagement in the out of doors. We're looking 
at a revival of sorts of the CCC from the great efforts of 
President Roosevelt.
    So we're looking at maintaining what we have. We're looking 
at acquiring critical inholdings. We're looking at things that 
seem the most urgent. But we do have a prioritization approach. 
We're going to be looking at it afresh with this new 
Administration and, again, according to those priorities that I 
just laid out from the Secretary.
    Senator Shaheen. Right. Thank you.
    The Chairman. Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Thank you, Mr. Strickland. Congratulations to you and to 
your wife Beth. Thank you very much for allowing him to serve 
in two jobs, it sounds like.
    Thank you also for coming to my office yesterday to visit 
about some of the issues that are critical, that are clearly 
reflecting the people of Wyoming. The number 1 thing we started 
to talk about yesterday was the issue of wolves. As you know, 
the grey wolf was introduced in Wyoming in the mid-1990s. At 
the outset the Fish and Wildlife Service required 30 packs of 
wolves, 10 in each State. We currently have more than 300 
wolves in Wyoming alone. Yet the Fish and Wildlife Service 
refuses to de-list.
    Yesterday you told me that the goal is to de-list because 
that's a success story. I appreciated that comment that you 
made yesterday, and I'd like you to just visit a little bit 
about that and how we define success.
    Mr. Strickland. Thank you, Senator. The issue of the wolf 
obviously, there are strong feelings around that issue from 
different points of view. The action taken recently by the 
Secretary to de-list in Idaho and Montana and other parts of 
the country, but not in Wyoming, definitely generated--both 
ears were sore after the calls came in on that one.
    But the fact that we consider, the Department considers, 
situations where we reach population levels that are sufficient 
to support de-listing as good outcomes, as success stories. So 
in this case the biologists at the Department who were working 
on this issue from the very outset were virtually unanimous in 
their view that very strong populations had been achieved and 
that strong management plans had been put in place in Idaho and 
Montana to support de-listing.
    While the populations are robust in Wyoming, as you 
recount, there were concerns about the management plans that 
were in place in Wyoming. But the goal would be to continue to 
work with the State, with the hope of reaching agreement so 
that there could be ultimately de-listing there as well, and 
then monitoring to make sure that the populations are 
maintained.
    Senator Barrasso. I appreciate your commitment, because you 
know you have the commitment for the Wyoming delegation, as 
well as Wyoming's Governor, to make sure that we can achieve a 
successful end.
    Now I'd like to go to talk a little about the Endangered 
Species Act and climate change. Senator Murkowski asked a 
little about the polar bear. We had Mr. Hayes here earlier, 
talked to him. He had said that the Endangered Species Act 
should not be used as a climate change tool and I wanted to 
know if you believe that the Endangered Species Act should be 
used as a climate change tool.
    Mr. Strickland. I don't think that's how it was intended--I 
think it doesn't lend itself to those kinds of assessments. 
Climate change, as we understand it, is a cumulative result of 
lots of activity over a long period of time. The ESA is 
designed to look at causality with respect to particular acts 
and the impact they have on habitat or species. So it is not 
designed really to deal with those issues.
    So I think when Mr. Hayes was making those comments he was 
reflecting the views of Secretary Salazar, and obviously that 
would be my view as well.
    Senator Barrasso. Then a little bit about snowmobiles. We 
talked yesterday about the original legislation in 1872 that 
established Yellowstone as the first national park, and it says 
that the parks are for the benefit and enjoyment of the people. 
Winter use in the parks has become a polarized issue for 
political campaigns. The people of Wyoming have strong feelings 
on winter use of the parks.
    I just ask that you visit a little bit about that now, if 
you could, please.
    Mr. Strickland. Sure. Not to sound a little bit like Forest 
Gump and say I've been everywhere, but I have been to 
Yellowstone in the winter on the Snow Coach, and I have cross-
country skied and been there with my family. We do own a 
snowmobile ourselves because we have a back country cabin in 
Colorado that you can only access the last few miles by 
snowshoe or snowmobile.
    So I respect and appreciate the balance that is appropriate 
when you look at that sort of use. I know this has been a long 
and charged debate over many years, and different viewpoints 
about what the right number is and whether there should be any 
snowmobiles. Right now we've got dueling Federal courts looking 
at that issue, and the Department's trying to steer itself 
through that to arrive at an end game which reflects the mutual 
respect for different activities. I think a lot of progress has 
been made.
    I've already visited with, when she came in to brief the 
whole Department, the park superintendent from Yellowstone on 
this issue. So my commitment would be that we would work to try 
and achieve an outcome there that is a proper balance of the 
competing interests.
    Senator Barrasso. Do I have time, Mr. Chairman, for one 
more question?
    The Chairman. Yes.
    Senator Barrasso. Thank you very much.
    I want to follow up on something Senator Bingaman asked 
earlier, and it's really the wearing of two hats, doing two 
jobs. I have full confidence in your ability to be Chief of 
Staff of the Department. I have full confidence in your ability 
to be in this position to which you're testifying today and 
seeking confirmation by the Senate. I am hesitant to say, how 
can one person do these two jobs, when to me they seem like 
more than full-time jobs, each one, in spite of the incredible, 
capable assistant you have in Renee Stone.
    Mr. Strickland. Senator, I appreciate that. Let me just 
reassert that my highest priority will be to discharge the 
responsibilities of this Presidentially nominated and Senate-
confirmed position if I'm fortunate enough to be confirmed. 
We'll make the adjustments on the other end. If the Chief of 
Staff piece needs to be turned down, we'll turn it down. There 
are plenty of capable people who can step into my shoes in any 
respect.
    Almost a third--almost half the employees of the Department 
are reflected in the Fish and Wildlife and Parks part of this 
portfolio, and almost 30 percent of the land. So by virtue of 
doing the one job I will be doing a big part of the other, if 
that follows. But I will not shortchange this position, and if 
I need to make adjustments on the other end I will.
    Senator Barrasso. Thank you, because we look forward to 
your dedicated service in this specific position.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Without making this a bouquet-tossing contest, let me also 
extend my welcome to Tom Strickland and his family. We're very 
glad to see you back in public service. I will tell you, my 
sense is you've got some heavy lifting ahead. Particularly 
important to me is getting the agency's ethical compass back in 
place. This is the agency visited by Steven Griles and Jack 
Abramoff and Julie McDonald, and the list goes on and on and 
on.
    I want to start particularly with Julie McDonald because I 
think that affects decisions that are being made in the West 
right now. Here's what the Inspector General had to say about 
Ms. McDonald, who of course was the former Deputy Assistant 
Secretary for Fish and Wildlife and in my view an individual 
who perpetrated numerous ethical transgressions. The Inspector 
General, Mr. Vaney, said, and I quote here: ``Her heavy-
handedness has cast doubt on nearly every ESA decision issued 
during her tenure. Of the 20 decisions we reviewed, her 
influence potentially jeopardized 13 ESA decisions.''
    So my first question I think for you today, Mr. Strickland, 
is what will you do to make sure that these tainted decisions 
by Ms. McDonald are fixed, and also to put in place a process 
so that there will never again be the kind of political 
interference that the Inspector General found with Ms. 
McDonald?
    Mr. Strickland. Senator, first of all, again thank you for 
your warm welcome.
    As I think you know, I'm a former Federal prosecutor. Right 
after I came on as chief of staff, the Secretary and I went out 
to Denver to the MMS offices. He met with all the employees of 
MMS to address some of the problems that had been discovered by 
the IG out there with respect to the oversight of our royalty 
programs for oil and gas.
    He asked me to take a look and take the lead within the 
Department, given my background and the fact we had worked 
together in law enforcement, he and I, at these issues just 
globally through the Department. So that review is under way, 
and we are going to have that be part of our ongoing ethos, if 
you will. The Secretary revised the ethics code for the 
Department right after he got there with specific emphasis on 
the mineral royalties.
    I haven't had a chance to take on that issue with specific 
responsibility at Fish and Wildlife because, as I've continued 
to say through this hearing, it's premature to do that. But the 
commitment I will give to you and the committee is that we will 
absolutely assure that the law is followed and that this is not 
an ideologically driven Department, and that we have scientists 
whose views are considered and who drive the outcomes here in 
this Department.
    Any Department, any institution, is only as good as the 
people that populate it, and I think the leadership of 
Secretary Salazar and hopefully the standard that we set in our 
own conduct will avoid those kind of outcomes in the future.
    Senator Wyden. Can you get me, Mr. Strickland, a time line 
on when you expect to review the McDonald-tainted endangered 
species decisions?
    Mr. Strickland. I'll be happy to, Senator.
    Senator Wyden. I think that's very important, because I 
think all over the West people want to know a precise time line 
with respect to when those decisions are being reviewed. My 
sense is they're being used on State issues as well, land use 
matters and the like. So that is important.
    My third question involves just having you bring me up to 
date on something. Is there a Mr. Randall Bowman still at the 
agency as of now?
    Mr. Strickland. I don't know the answer to that question. 
What part of the agency?
    Senator Wyden. Here's what Mr. Vaney said, and I'll quote 
here: ``McDonald was also ably abetted in her attempts to 
interfere with the science by Special Assistant Randall Bowman, 
Office of the Assistant Secretary for Fish and Wildlife and 
Parks, who held the position and authority to advance the 
unwritten policy to exclude as many areas as practicable from 
critical habitat determinations.''
    I'm not clear as to whether he's there and, if he is there, 
what his duties are. Do any of the people at the agency who are 
here with you, can they inform us on that?
    Mr. Strickland. I believe I was just told he was still 
there. I don't know that personally.
    Senator Wyden. Would you get back to me, then, Mr. 
Strickland? Given what the Inspector General said about his 
involvement with Ms. McDonald, I would like to know exactly, A, 
if he's there--and it appears from your staff that he is--and 
second, what his duties are.
    Mr. Strickland. I'd be happy to do that, Senator.
    Senator Wyden. The last area I want to ask you about 
involves a matter in my home State, and that is the Palomar 
Natural Gas Pipeline. If this goes forward it would cut through 
the Mount Hood National Forest and adjacent BLM lands. Now, the 
Fish and Wildlife Service found numerous shortcomings and said 
that the information provided by FERC was inadequate for proper 
endangered species consultations to take place.
    Obviously, people at home are concerned because they've 
seen what havoc Julie McDonald wreaked, and I think what I'd 
like to have an assurance on is that you will give great 
deference to the folks at the Fish and Wildlife Service, your 
scientists, as you go forward in looking at this.
    Mr. Strickland. Senator, again I'm not specifically 
familiar with the project. I'll make myself familiar with it 
and you have that commitment.
    Senator Wyden. That's exactly the kind of approach that we 
want to see taken. I think the history of our region, and a 
number of our Governors, both Democrats and Republicans, have 
said we in the West can find common ground. We can find common 
ground. So much of our land is multiple use. But we've got to 
have sensible science. Certainly, for a number of years now the 
writings of the Inspector General just take your breath away 
with respect to the kinds of ethical transgressions that took 
place in the last few years.
    I thought the Secretary began quickly to set a very 
different tone. We're pleased about your appointment, and 
particularly your record as a former prosecutor, because I 
frankly think that's exactly the kind of background we need. So 
I look forward to working with you, and both the chairman and 
Senator Murkowski--I chair the Public Lands Subcommittee and 
I'll be working closely with the chairman and Senator Murkowski 
and yourself and the Secretary in the days ahead.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Murkowski, did you have additional questions?
    Senator Murkowski. I do, Mr. Chairman. Thank you.
    Mr. Strickland, I wanted to ask you about the decision that 
came out last week in Federal district court here regarding the 
guns in parks. There was a preliminary injunction that 
suspended the Department's regulations allowing the possession 
of guns in national parks and wildlife refuges, and sustaining 
that preliminary injunction is a pretty high standard.
    My understanding is that, while the Department defended the 
rule in court, the Department had already undertaken its own 
review of the regulation. Does the Department intend to appeal 
the court's decision and continue to defend the regulation in 
the future?
    Mr. Strickland. Senator, the Department made the decision--
it was confronted with this issue once the new Administration 
came in--made the decision to defend the rule. As part of that 
decision, the Secretary indicated that the position of the 
Department would be, and the government, that the environmental 
review--the decisions made regarding the necessary 
environmental review were defensible and correct. Nonetheless, 
he was going to--and that was the position we were going to 
take in court. But he asked the Department, the bureaus, Parks 
actually in this case, to look at Fish and Wildlife as well 
because it's national wildlife refuges--to look at the 
potential impact, environmental considerations that might be 
implicated in the implementation of this.
    That didn't affect the position taken in the court case----
    Senator Murkowski. So you will still continue to defend it. 
You're looking at perhaps another issue, the environmental 
aspect?
    Mr. Strickland. Now that the court has ruled preliminarily 
with respect to putting an injunction in place, the court has 
now directed the Department to get back by April 20. The judge 
has concluded that an environmental review needs to be done to 
uphold that rule. So the decision facing the Department right 
now and the Secretary is whether to do a review, whether to 
appeal, whether to withdraw the regulation, if to do a review 
whether an EIS or an EA.
    Those are all matters that are under consideration right 
now and no decision has been made. That decision will have to 
be made by April 20, and that's all under consideration right 
now.
    Senator Murkowski. You mentioned the State of the Birds 
Report that Secretary Salazar released just last Friday. In 
that report it concludes that energy development, whether it's 
conventional or renewable resources, is having a ``significant 
negative effect on birds in North America.'' I haven't read the 
report myself, but I understand that the areas where we're 
seeing the greatest impact is in the grasslands and the arid 
lands, which are the areas with really great energy potential 
when it comes to wind and solar energy.
    Do you believe that the energy development and the 
environmental protection can be balanced, or are we going to be 
in a situation where we're having to place additional lands off 
limits for development? I don't know. You've got the sage 
grouse. What impact would a listing, for instance--and I'm just 
picking the sage grouse. But what impact would that listing, 
would such a potential listing have on our ability to develop 
our renewable energy sources, and how are you factoring in 
decisions like this?
    Mr. Strickland. I think it's been demonstrated over time 
that conventional energy resources can be developed in ways 
that are respectful and compatible with the environmental laws. 
I think that same case will be made with respect to renewable 
energy as it becomes more prevalent. There are real issues that 
have to be considered, and I think just even in today's paper 
there's a story about issues and concerns about developing 
solar power in the Mohave Desert.
    So I think that there is not a reason why there can't be an 
effort to balance the competing interests here and still honor 
both interests. I think we have a good track record in this 
country. While there hasn't been complete agreement in all 
instances, there is an opportunity I think to find ways to do 
both. That's the spirit I think that Secretary Salazar had when 
he was the head of the Department of Natural resources in 
Colorado, when he was Attorney General, and I think he had in 
the Senate.
    So we'll be looking to work to reconcile those interests 
and that they don't necessarily have to be counterproductive.
    Senator Murkowski. I certainly agree with you. We recognize 
that you can have development of your resources or otherwise, 
you can have development in concert with care and protection of 
our environment.
    I can't let you leave without bringing up ANWR. You 
probably know that I have introduced a proposal that would 
allow for directional drilling underneath the 1002 area, that 
would not provide for surface disruption. I understand that in 
your past as a candidate you have come out in opposition to 
ANWR, but I would ask if you are confirmed--a new member coming 
into an Administration, an Administration that has said, we 
know that we need to do more when it comes to domestic 
production--I'd like to ask you to take a look at the proposal, 
because I do think that when our technologies allow us to do 
something in this day and age that we simply couldn't do 20 
years ago, allow us to provide for a level of protection for 
our environment while at this same time figuring out how we can 
tap into resources that we need for our energy security, for 
the strength of this country--it's a proposal that's out there 
and I would hope that you'd be willing to take a look at it 
perhaps with a fresh approach.
    Mr. Strickland. Senator, as you know, it's the position of 
this Administration and Secretary Salazar not to support 
drilling in the Arctic Wildlife Refuge at this time.
    Senator Murkowski. That's why we wouldn't be doing it 
there. We're doing it over there.
    Mr. Strickland. I appreciate that. I think we should always 
pay attention to what technology can make possible. I won't be 
making that call even if confirmed on this issue. So I'll be 
following the position of the Administration and Secretary 
Salazar. But I would note that when I went out to visit the rig 
last week it was remarkable how things have changed in the 35 
years since I was out there on a platform myself.
    But the issues that play into the protection of the Arctic 
Wildlife Refuge I think are for this Administration at this 
time in place, and I would be honoring those. But certainly we 
should always look at what new technology can do in other 
areas.
    Senator Murkowski. We'll be making sure that you see the 
new technologies.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Strickland, thanks for taking so much time with us 
today. I think we will allow members to submit any additional 
questions for the record until 5:00 o'clock tomorrow, If you 
could respond to any questions that are submitted we would 
appreciate it. We hope to act on your nomination in the next 
week or so.
    So thank you very much, and that will conclude our hearing.
    [Whereupon, at 3:37 p.m., the committee was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

 Responses of Thomas L. Strickland to Questions From Senator Murkowski
    Question 1. The Alaska Department of Fish and Game recently 
implemented a new predator control effort east of Fairbanks in hopes of 
boosting caribou numbers in the Fortymile herd that ranges from the 
Steese Highway to the Canadian border. The National Park Service has 
expressed concern over this program, but the State has taken the 
necessary precautions to make sure they do not over-control the wolves. 
The intended outcome of this effort is to increase the caribou 
population in this herd from 40,000 to between 50,000 and 100,000. Will 
you support this policy of the State of Alaska and the agreement that 
was reached between the State of Alaska and the National Park Service?
    Answer. I am told that the National Park Service has been working 
collaboratively with the State of Alaska in managing wildlife on park 
and preserve lands. The National Park Service and the Alaska Department 
of Fish and Game have different statutory frameworks, and a cooperative 
relationship is essential to fulfilling their different mandates. If 
confirmed, I will work to ensure that the Department remains supportive 
of these cooperative efforts.
    Question 2a. In a June 5, 2002 article the Rocky Mountain News 
reported: ``Democratic Senate candidate Tom Strickland, however, says 
yes. He held a news conference with Sen. Harry Reid, D-Nev., the other 
day, saying he's opposed to having any spent nuclear fuel that's headed 
for Yucca Mountain, Nev., come through Colorado. Each shipment could be 
turned by terrorists into a ``dirty bomb, creating unspeakable 
devastation,'' Strickland said. ''
    Do you think our country is more secure with this high-level 
nuclear waste stored in dry and wet storage at reactors spread around 
the country, or at one or two secure underground facilities?
    Answer. As you know, nuclear waste disposal is under the 
jurisdiction of the Department of Energy's Office of Civilian 
Radioactive Waste Management. Ultimately, I believe we need a safe, 
long-term disposal solution that is based on sound science.
    Question 2b. As Chief of Staff and Assistant Secretary, will you 
commit to this Committee that if the site at Yucca Mountain is to be 
defunded, that you will work with Secretary Salazar to select three 
alternative sites that could be utilized to store high level 
radioactive waste, and then transmit those recommendations to this 
Committee?
    Answer. Again, the Department of the Interior does not have lead 
responsibility for siting nuclear waste disposal sites. We will commit 
to making scientists from USGS and around the Department available for 
assisting the Department of Energy with developing reliable scientific 
information about long-term storage of these wastes.
    Question 3a. I note that in the past, you and your wife have served 
on a number of boards of directors for a variety of environmental 
groups. Do you currently serve on any board of directors or advisory 
board for any group that has any interest in any of the agencies you 
would oversee in the position you are now being considered for?
    Answer. No.
    Question 3b. Does your wife serve on any board of directors or 
advisory board for any group that has any interest in any of the 
agencies you would oversee in the position you are now being considered 
for?
    Answer. No.
    Question 3c. If yes, will you commit to recuse yourself from 
dealing with any issue that any of these groups might bring to one of 
your agencies or to the Department?
    Answer. N/A
    Question 4. Included in H.R. 146, the Omnibus lands bill now 
pending before the House, is a land exchange involving the Izembek 
Wildlife Refuge. This legislation provides for a one-lane gravel road, 
from King Cove to the all-weather airport at Cold Bay, for medical 
emergency cases. If you are aware of the measure, what is your general 
position on it? Can you talk about your knowledge base for overseeing 
the EIS that Interior is directed to undertake to implement the 
legislation?
    Answer. I am aware that the legislation mentioned in your question 
passed the House this week and will now be sent to the President. If 
the President signs the bill into law, I look forward to reviewing the 
provisions that my office will be responsible for and determining what 
specific actions will need to be taken to implement those provisions. 
As I noted at my confirmation hearing, I have dealt extensively with 
the Department and its bureaus and other federal agencies regarding 
many important natural resource issues. If confirmed, I will bring 
these experiences and the perspectives they have helped form to all of 
the actions I take as Assistant Secretary.
                        stimulus implementation
    Question 5a. During your nomination hearing, in response to a 
question from Senator Shaheen concerning the Park Service maintenance 
backlog you said in part that: ``...I have been involved as a point 
person on the stimulus dollars...so we are looking at maintaining what 
we have and we are looking at acquiring critical in-holdings, we're 
looking at things that seem most urgent.''
    Did you mean to infer that the Park Service intends to use any of 
the stimulus funds that the Department of the Interior received to 
acquire any land, critical or not?
    Answer. No. The stimulus funds will be used for the purposes 
specified in the Act. For the Park Service this includes investments in 
infrastructure, including deferred maintenance and construction.
    Question 5b. Do you agree that the stimulus bill did not include 
any funding for your Department for land acquisition?
    Answer. Yes. I agree that the American Reinvestment and Recovery 
Act does not appropriate funding for land acquisition for the 
Department of the Interior.
    Question 5c. If you believe that the stimulus bill included 
language and funding that could facilitate land acquisition by any of 
the Department's agencies, would you provide the language to the 
Committee?
    Answer. The American Reinvestment and Recovery Act does not 
appropriate funding for land acquisition for the Department of the 
Interior.
    Question 6. In 2007, then-Senator Salazar sponsored legislation 
that would provide financial incentives for private land owners, 
including farmers and ranchers, to facilitate the recovery of 
threatened and endangered species while preserving the opportunities 
for productive use of land. (Press Release, Salazar and Allard Team Up 
to Help Farmers & Ranchers Protect Endangered Plants and Animals (Feb. 
2007). In the 2008 Farm Bill, a limited measure along these lines was 
enacted for agricultural activities that help conserve threatened and 
endangered species.
    Does the Department of the Interior support efforts to enact 
incentives for species conservation, including widening of the tax 
incentives enacted in the 2008 Farm Bill to all private land owners?
    As Assistant Secretary for Fish and Wildlife and Parks, how will 
you work to ensure that such tax incentives are made available to all 
private land owners?
    How will you work to establish and promote other voluntary efforts 
to protect threatened and endangered species while preserving 
opportunities for productive land use?
    Answer. I believe that voluntary conservation efforts on private 
lands play an extremely important role in the conservation of listed 
species. The Department promotes voluntary cooperation with private 
landowners to the extent possible to achieve our mission. Incentives 
are an important tool in this effort to conserve endangered species, 
migratory birds, fisheries and the habitats upon which they depend.
    If confirmed, I will work with Congress, the Fish and Wildlife 
Service, and partners to investigate other incentives to engage more 
land owners in natural resource conservation.
    Question 7. In a June 10, 2005 letter to Secretary Gale Norton, 
then-Senator Salazar supported the San Luis Valley Regional Habitat 
Conservation Plan (HCP), which aids the protection of the southwestern 
willow flycatcher in the San Luis Valley in Colorado. In addition, he 
advocated that the ``U.S. Department of the Interior Fish and Wildlife 
Service determine that the lands subject to this HCP be excluded from 
the designation of critical habitat of the flycatcher in Colorado.'' 
(Letter of the Hon. Ken Salazar and Wayne Allard to Secretary of the 
Interior, Gale Norton, June 10,2005.)
    The exclusion of the lands subject to HCPs from critical habitat 
designations under the ESA serves as an incentive for partnerships 
between the state and local governments; conservation organizations and 
landowners to protect and manage threatened and endangered species 
which ``leads to better protection and faster recovery for endangered 
species.''
    In your role as Assistant Secretary for Fish and Wildlife and 
Parks, will you apply these same principles to your oversight of the 
implementation of the ESA and similarly support the exclusion of lands 
already covered by HCPs from a redundant designation as critical 
habitat?
    Answer. If confirmed I will uphold the principles of the Endangered 
Species Act. I understand the ESA requires that decisions to exclude 
areas from critical habitat be based on a case-by-case determination 
that the benefits of exclusion outweigh the benefits of inclusion in a 
particular case.
    Question 8. Numerous courts have determined that recovery plans are 
nonbinding guidance--namely, that they do not impose requirements on 
federal agencies. Fund for Animals v. Rice, 863 F.3d. 535 (11thCir. 
1996); Oregon Natural Resources Council v. Turner, 863 F. Supp. 1277 
(D. Or. 1994); Defenders of Wildlife v. Lujan, 792 F. Supp. 834 (D.D.C. 
1992) National Wildlife Federation v. National Park Service, 669 F. 
Supp. 384 (D. Wyo. 1987).
    How will you ensure that your Department's implementation of the 
ESA continues to implement recovery plans as guidance only and does not 
seek to impose recovery plan measures as mandatory actions through such 
measures as reasonable and prudent alternatives under a section 7 
biological opinion or as required terms in the development of a habitat 
conservation plan?
    Answer. As prescribed in the ESA, Recovery Plans layout a blueprint 
for management actions and criteria to recover species. I understand 
that the Fish and Wildlife Service has a longstanding position that 
Recovery Plans are guidance and are only advisory in nature.
    Question 9. What principles will you employ in administration and 
implementation of the Endangered Species Act?
    Answer. If confirmed for this position, I will ensure that the 
Endangered Species Act is administered and implemented with the highest 
ethical and professional standards, and respect for scientific 
integrity. I commit to ensuring that the decisions we make under the 
ESA will be consistent with the statute and its implementing 
regulations, based on the best available science, and will be carried 
out in an accountable, transparent fashion that involves the public.
    Question 10. Please describe your previous experiences in balancing 
differences between economic interests and environmental interests. Are 
there any lessons learned that you will take to the job on how you have 
incorporated both environmental and economical values in your decision-
making process?
    Answer. I believe strongly in taking a pragmatic approach to 
problems and looking for ways that environmental concerns can be 
resolved while economic development continues. Some of the most 
satisfying experiences of my professional life have involved situations 
where I was able to help negotiate win-win solutions in situations 
where environmental and business interests at first appeared to be at 
odds. One example was my experience as the lead lawyer for a project to 
construct the E-470 highway in the Denver area. Environmental groups 
were at first strongly opposed to the highway project, arguing that the 
emissions would have a serious impact on local communities. The project 
sponsors sat down with the concerned groups and negotiated an agreement 
under which the project sponsors provided significant mitigation for 
the air quality impacts from the project. This satisfied the project 
opponents and allowed the project to move forward without divisive and 
delaying litigation. The Denver community doubly benefited from an 
improved transportation system and significant environmental 
protection.
    A second example was my experience helping to establish and serving 
on the board of Great Outdoors Colorado, an organization founded to 
help protect, enhance, and manage open space and key wildlife habitat 
throughout the State of Colorado using dedicated State revenues. 
Without the use of eminent domain, and with the full support of 
business and agricultural interests, this organization has helped to 
preserve over 600,000 acres in Colorado. I am very proud of my 
leadership role in helping to establish this ongoing conservation 
program. Great Outdoors Colorado continues to play an active role in 
preserving the state's wildlife, park, river, trail, and open space 
heritage.
    Question 11a. Over the last several decades, there has been 
significant conflict within the scientific community regarding ESA 
decisions.
    Please describe how you will address these differences when they 
arise, especially as they relate to matters with a high degree of 
scientific uncertainty.
    Answer. Within the realm of science there is need for continuous 
dialogue. ESA decisions must be made based on the best available 
science at the time, recognizing that even within the scientific 
community differences of opinion will exist. If confirmed, I am 
committed to a transparent decision-making process that includes public 
involvement and peer review.
    Question 11b. Please describe the policy discretion you will 
consider when making determinations that involve less than certain 
scientific conclusions, and that could have significant economic and 
societal consequences.
    Answer. If confirmed, where the law affords me an opportunity to 
exercise policy discretion, I will use that discretion to review issues 
as they arise and will base my decisions on an accountable, public, and 
transparent process that includes the best available science at the 
time.
    Question 12. The purpose of the Endangered Species Act is to 
protect and conserve endangered and threatened species. Certain 
entities have unequivocally stated that they intend to use the ESA to 
pursue and require the reduction of greenhouse gas emissions. How will 
you ensure that, consistent with your obligation to carry out the 
purposes of the ESA, the Department of the Interior does not allow 
parties to use the ESA as a back-door mechanism to force the debate or 
choice of federal statutory or regulatory actions regarding responses 
to climate change or any regulation of greenhouse gas emissions?
    Answer. As I stated during my hearing, I do not think that the ESA 
is a good tool for regulating greenhouse gas emissions. I know Congress 
is beginning to work on legislation tailored to address climate change 
specifically.
    Question 13. During his tenure as Attorney General for the State of 
Colorado, Secretary Salazar raised concerns with the Fish and Wildlife 
Service's process for considering the listing of the black-tailed 
prairie dog. In particular, he raised concerns that there was 
insufficient, credible information demonstrating that such listing was 
necessary. Almost 10 years later, the Fish and Wildlife Service has 
made few, if any, substantive changes to the process by which listing 
petitions are considered and/or how information is gathered and 
reviewed in determining whether a species should be designated as 
threatened or endangered under the Endangered Species Act.
    How will you work to improve the listing process to ensure that 
credible data is collected and fully reviewed, including from State and 
local governments as well as private landowners, prior to any real 
determination regarding listing of a species under the ESA?
    Answer. If confirmed, I commit to implement and administer the Act 
with the highest ethical standards and professional integrity. I will 
work with the Fish and Wildlife Service to ensure that ESA decisions 
are based on the best available science and done in an accountable, 
transparent fashion with the meaningful involvement of States, local 
governments, other federal agencies, tribes and the public.
    Question 14a. It is now common practice for environmental groups to 
file lawsuits against the U.S. Fish and Wildlife Service for failure to 
timely act on petitions to list species under the Endangered Species 
Act and/or to designate critical habitat. Usually, settlements and 
court orders from such lawsuits set deadlines for issuance of proposed 
and final determinations on listing and critical habitat designation 
matters that ultimately lead to a rush to judgment and incomplete 
consideration of available data. Such litigation-driven decision making 
also interferes with any orderly administrative process for these 
decisions.
    As Assistant Secretary for Fish, Wildlife and Parks will you commit 
to take those actions necessary, including seeking modification of 
settlements and request for modification of decrees, to ensure that the 
Fish and Wildlife Service is allowed to properly carry out your 
responsibilities under the ESA without the threat of arbitrarily 
imposed deadlines?
    Answer. If confirmed, I will work with the Department of the 
Interior's Office of the Solicitor and the Department of Justice seek 
reasonable time frames that enable the Fish and Wildlife Service to 
make decisions on listing and critical habitat consistent with the 
requirements of the ESA.
    Question 14b. Will you fully consider proposals (including 
regulatory or legislative efforts) that ensure that parties do not use 
the judicial system to usurp the effective administration of the ESA, 
including improvements to the management and deadlines for listing and 
critical habitat determinations under the ESA?
    Answer. Yes, if confirmed, I will consider any proposals intended 
to improve the implementation of the ESA.
    Question 15a. This morning, Fish and Wildlife made a finding on a 
petition to list the yellow billed loon as warranted, although 
presently precluded by other high priority listings. How will Interior 
proceed with regard to this listing, and how would Interior reconcile a 
potential listing with the leasing plan for the North Aleutian Basin?
    Answer. If confirmed, I will ensure that Fish and Wildlife Service 
works with other Federal agencies on these important issues.
    Question 15b. In addition to U.S. entities, including the Center 
for Biological Diversity and the Natural Resources Defense Council, 
seven Russian entities appeared on the petition to list the yellow 
billed loon. Given the potential negative implications for domestic 
energy production, to what degree do foreign organizations add weight 
to a petition to list? Particularly in the case of nations with energy 
production that may compete with our own, does the Interior Department 
investigate or vet any of the petitioners to assess legitimacy or 
conflicts of interest?
    Answer. I understand that the ESA requires the Fish and Wildlife 
Service to determine if a petition provides substantial scientific or 
commercial information that the petitioned action may be warranted, not 
to authenticate any particular petitioner.
     Response of Thomas L. Strickland to Question From Senator Burr
    Question 16. North Carolina is home to many treasures, one of which 
is the Cape Hatteras National Seashore. The National Park Service has 
been remiss in their requirement to prepare an off-road vehicle 
management plan for the park, and now we are faced with a situation in 
which a court-sanctioned agreement is dictating the use of this area 
while the Park Service works on a rule-making process that may take 
three years to complete. I look at this situation as it pertains to the 
future enjoyment of all our national park? by the American people. The 
issue of access to our national treasures is at stake here.
    Mr. Strickland, if confirmed, will you commit to working with me to 
ensure Americans have access to our national parks?
    Answer. If confirmed, I will certainly be willing to work with you 
on national park access Issues.
    Regarding Cape Hatteras National Seashore, the National Park 
Service is working diligently to meet the schedule required by the 
consent decree for completing an off-road vehicle management plan. In 
the meantime, if confirmed, I will work to ensure that the National 
Park Service does everything possible to minimize beach closures and 
facilitate public access at Cape Hatteras while still providing 
sufficient protection for park resources, including migratory birds and 
threatened and endangered species.
                                 ______
                                 
                        Department of the Interior,
                                   Office of the Secretary,
                                    Washington, DC, March 31, 2009.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, Room SD 304, U.S. 
        Senate, Washington, DC.
    Dear Mr. Chairman: Enclosed you will find my response to the 
additional written questions submitted following my March 24, 2009, 
confirmation hearing.
    If I can be of further assistance, please do not hesitate to 
contact me.
            Sincerely,
                                      Thomas L. Strickland,
                                    Assistant Secretary--Designate.
[Enclosure.]
             Responses to Questions From Senator Murkowski
    Question 1. I hope you are aware of the effort of many to gain a 
nonessential-experimental population designation for the Woodland Bison 
near Fairbanks, Alaska so they can be re-introduced into the wild.
    According to the white paper that Interior staff shared with my 
office the ``ADF&G will not release Woodland Bison into the wild until 
the final special rule containing the nonessential experimental 
population designation and special conditions and exemptions are in 
place and determined to ensure sufficient protection to existing and 
future land uses.''
    The U.S. Fish and Wildlife Service and the Alaska Department of 
Fish & Game have been playing around with this proposal since the early 
1990's.
    Will you commit that you will direct the U.S. Fish & Wildlife 
Service to make a decision one way or the other on using the 
experimental population designation 10(j) and the 4(d) provisions of 
ESA for the Woodland Bison within the next 6 months?
    I suspect that without such a listing there is no chance of 
releasing these animals into the wild and that would be a real shame.
    I also want you to understand that it is entirely unacceptable for 
the U.S. Fish & Wildlife Service to continue to play kick the can, year 
after year by refusing to make a decision on the status in hopes of 
getting a different level of support from the Doyon's and the public.
    Answer. I am aware that officials within the U.S. Fish and Wildlife 
Service are working with the Alaska Department of Fish and Game on 
reintroduction of wood bison in Alaska. Under section 10(j) and 4(d) of 
the ESA, the Service has the ability, as appropriate, to provide 
management flexibility for species that are reintroduced. If confirmed, 
I commit to working with the State of Alaska and the Service to ensure 
that we move forward in a timely fashion and responsive fashion.
    Question 2. In response to questions regarding the construction of 
a road from King Cove to Cold Bay, Alaska, the following quote from 
Secretary Salazar was recently broadcast on Alaska public radio: ``We 
will now look at the specific language of that bill. I know it was one 
of the specific areas of conflict (in the legislation). Can't let the 
perfect be the enemy of what's already a very spectacular bill. We will 
now look at the specifics of the particular road that is in 
controversy. But, I've not done that yet.''
    I would like you assurances that the Department of the Interior's 
examination of the Izembek Exchange will be dealt with through the 
Environmental Impact Statement process and that you will wait until 
that process is complete prior to making any recommendation to the 
Secretary that would delay the construction of the road that is 
authorized in H.R. 146 in the Izembek National Wildlife Refuge.
    Answer. I am aware that the legislation requires the Department to 
comply with the National Environmental Policy Act and to prepare an 
Environment Impact Statement within 60 days of being notified by the 
State and King Cove Corporation of their intent to exchange the lands 
identified in the Act. I understand that the purpose of an EIS is to 
provide and assessment of the environmental impacts of a proposed 
agency action and so must be carried out before an agency decision is 
made. I commit to you that I intend to follow the letter and the spirit 
of the law in this matter.





</pre></body></html>
